Audit Report




OIG-09-008
Management Letter for Fiscal Year 2008 Audit of the
Community Development Financial Institutions Fund’s Statement
of Financial Position


November 18, 2008




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 18, 2008


            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                 Michael Fitzgerald /s/
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2008 Audit of the
                                  Community Development Financial Institutions Fund’s
                                  Statement of Financial Position


            I am pleased to transmit the attached management letter in connection with the
            audit of the Community Development Financial Institutions Fund’s (CDFI) Fiscal
            Year 2008 statement of financial position. Under a contract monitored by the
            Office of Inspector General, KPMG LLP (KPMG), an independent certified public
            accounting firm, performed an audit of CDFI’s statement of financial position as of
            September 30, 2008. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit
            Manual.

            As part of its audit, KPMG issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting that was identified during the audit, but was not required to be included
            in the audit report.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Catherine Yi, Manager, Financial Audits, at
            (202) 927-5591.

            Attachment
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036




November 12, 2008


Office of the Inspector General
740 15th Street NW
Washington, DC 20220


Community Development Financial Institutions Fund
601 13th Street NW
Washington, DC 20005

Ladies and Gentlemen:

We have audited the statement of financial position of the U S Department of the Treasury Community
Development Financial Institutions Fund, (the Fund) as of September 30, 2008, and have issued our
report thereon dated November 12, 2008. In planning and performing our audit of the statement of
financial position of the Fund, in accordance with auditing standards generally accepted in the United
States of America, we considered the Fund’s internal control over financial reporting (internal control)
as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
statement of financial position but not for the purpose of expressing an opinion on the effectiveness of
the Fund’s internal control. Accordingly, we do not express an opinion on the effectiveness of the
Fund’s internal control.
During our audit, we noted a matter involving internal control that is presented for your consideration.
This comment and related recommendation, which have been discussed with the appropriate members
of management, are intended to improve internal control and are summarized as follows.
Lack of Written Accounting Policies and Procedures
CDFI has not developed effective written accounting policies and procedures. Therefore, the control
environment may be vulnerable to weaknesses in internal controls and certain bias may be applied to
accounting processes. For example, we observed (1) different versions of Compliance Monitoring and
Evaluation processes (2) similar transactions that were not treated consistently (i.e. awards monitoring,
investment valuations, Time to Disbursement), and (3) certain management prepared schedules were not
complete and accurate and did not report the underlying data in a transparent matter (i.e Investment
Schedule, A-133 Reporting Requirement Schedule, and Status and Delinquency of Loans).

The Government Accountability Office (GAO) Internal Control Standards in the Federal Government,
Internal Control Management and Evaluation Tool recommends that appropriate policies, procedures,
techniques, and control mechanisms be developed and in place to ensure adherence to established
directives.




                                      KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                      member firm of KPMG International, a Swiss cooperative.
Recommendation

We recommend the Fund establish a standard accounting policies and procedures manual. This manual
will serve as an aid in training new employees, monitoring the performance of existing employees, and
improving internal communication. At a minimum, the manual should include:

o	 CDFI’s organizational chart
o	 Position descriptions, outlining duties and responsibilities (approved by the Departmental Offices)
o	 Descriptions of methods, procedures, and accounting principles to be followed, including
   explanations and examples of those transactions
o	 The chart of accounts (i.e. a more detailed cycle matrix with explanations)
o	 Any other documents or forms for which uniformity of use is desired
o	 The system of internal controls (which can aid in the review and evaluation for OMB A-123)

This manual could help standardize the processes that are performed at CDFI and complement the
procedures performed at the Bureau of Public Debt. Developing a written accounting policies and
procedures manual will aid management in making key management decisions and accessing the
effectiveness of controls, as well as assisting employees understanding of their role and responsibilities
in the Fund. These written accounting policies and procedures should be designed to help safeguard the
Fund's assets and to promote accuracy, efficiency, and consistency in accounting and business
operations throughout the Fund. Written accounting policies and procedures can ensure that the Fund is
structured to comply with prescribed accounting standards applicable to the Fund to maintain an
adequate control environment.

Management’s Response
The CDFI Fund agrees that the Office of the Chief Financial Officer (OCFO) has not developed written
accounting policies and procedures, nor written policies and procedures related to the Debt Collection
Improvement Act, which places the CDFI Fund at risk for internal control weaknesses. Accordingly,
the CDFI Fund will adopt the auditor's recommendations and will establish the recommended policies
and procedures manual to ensure that: (i) the CDFI Fund complies with the internal control standards set
by the Government Accountability Office, Treasury Directive 32-01 (Accounting Principles and
Standards), Treasury Directive 40-04 (Treasury Internal Management Control Program), and all other
applicable statutes, regulations, orders, directives, and standards; (ii) internal controls are in place, the
potential for material misstatements in financial reporting is reduced significantly, and processes are
standardized and complement the procedures performed at the Bureau of Public Debt; (iii) all
transactions are properly recorded and supported with adequate documentation; (iv) similar transactions
are treated consistently; and (v) management-prepared schedules (including the Status and Delinquency
of Loans schedule) are complete, accurate and report the underlying data in a transparent manner. The
manual will serve as an aid to train new employees, monitor the performance of existing employees, and
improve internal communications. The CDFI Fund’s OCFO will prepare such policies and procedures
manual by the end of the second quarter of Fiscal Year 2009.


                                *        *       *        *       *        *
In addition, we identified certain deficiencies in internal control that we consider to be significant
deficiencies and communicated them in writing to management and those charged with governance on
November 12, 2008.
Our audit procedures are designed primarily to enable us to form an opinion on the statement of
financial position, and therefore may not bring to light all weaknesses in policies or procedures that may
exist. We aim, however, to use our knowledge of the Fund’s organization gained during our work to
make comments and suggestions that we hope will be useful to you.
This communication is intended solely for the information and use of the management of the CDFI
Fund, the Department’s Office of Inspector General, the Office of Management and Budget, GAO, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.
We would be pleased to discuss this comment and recommendation with you at any time.


Very truly yours,
